fc—A

Proof of Sendee

I certify that I submitted copies of the materials to the respondents’ Attorneys on
August 12, 2021 as follows:

cc Solicitor General
cc White & Case LLP
cc Williams and Connolly LLP
cc O'Melveny & Myers LLP
cc Covington & Burling LLP
cc Congress: House and Senate OGC
cc Diane Lopez Harvard University
cc Attorney General District of Columbia
cc Howar d University OGC
cc Tyler Perry’s Counsel.
Cc Oprah Winfrey’s Counsel.
Cc Tom Cruise’s Counsel.
Cc Mel Gibson’s Counsel.
Cc James Cameron’s Counsel.
& et al. Respondent Parties did not enter an appearance but petitioner contacted all parties
representatives via email and provided response materials.

David Louis Whitehead

